   October 03, 2002




Acquisition
Acquisition of the Advanced
Deployable System
(D-2003-004)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ADS                   Advanced Deployable System
C4I                   Command, Control, Communications, Computers, and Intelligence
CARD                  Cost Analysis Requirements Description
DCMA                  Defense Contract Management Agency
EAC                   Estimate at Completion
EVMS                  Earned Value Management System
ORD                   Operational Requirements Document
           Office of the Inspector General of the Department of Defense
Report No. D-2003-004                                                      October 3, 2002
   (Project No. D2002AE-0003)

               Acquisition of the Advanced Deployable System

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by all who are
interested in the acquisition of the Navy’s Advanced Deployable System (the System).
The report addresses acquisition issues that require higher management attention before
the System program should be allowed to progress further through the acquisition
process.

Background. The System, a Navy Acquisition Category II program, is a next-
generation, ship-deployable, undersea surveillance system that is designed to operate in
littoral waters. The System is linked to a land facility for data processing, evaluation, and
reporting. The System will be used to conduct missions, such as threat port surveillance,
friendly port protection, area defense, area sanitization, and strategic indications and
warnings. The System will have the ability to be installed overtly or covertly, depending
on the needs of the Joint Task Force Commander. The program office’s estimate
includes $793.7 million for research, development, test, and evaluation for all four blocks
of the evolutionary acquisition strategy and $785 million for procurement for the first two
blocks.

Results. Overall, the System program warrants attention in the areas of acquisition
category designation, earned value management, and documentation before it enters the
full-rate production phase of the acquisition process.

       •    The System program manager did not inform the Assistant Secretary of the
            Navy (Research, Development, and Acquisition) that the oversight of the
            program should be raised to the level of an acquisition category I program.
            As a result, acquisition management oversight was not provided
            commensurate with that required for an acquisition category I program.
            Designating the System as an acquisition category I program should provide
            the oversight necessary for an acquisition program of this magnitude
            (finding A).

       •    The program office did not apply standard estimate-at-completion formulas in
            calculating earned value management computations and did not request the
            Defense Contract Management Agency to review earned value management
            calculations. As a result, the program office’s estimate at completion was
            significantly lower than the estimate at completion calculated using standard
            formulas and did not provide decision makers with accurate data on estimated
            contract cost overruns. Revising the current draft memorandum of agreement
            between the program office and the Defense Contract Management Agency to
            include Defense Contract Management Agency oversight of contractor earned
            value management calculations will help provide accurate earned value
            management data to decision makers (finding B).
       •   The System program office had not completed actions to update the
           acquisition strategy; cost analysis requirements description; life-cycle cost
           estimate; command, control, communications, computers and intelligence
           support plan; and programmatic environmental, safety, and health evaluation
           plan as required to show the current status of the program. As a result, the
           program manager did not have up-to-date acquisition documentation needed
           to effectively manage program cost and performance and acquisition decision
           makers could not make fully informed investment decisions (finding C).

For details of the audit results, see the Findings section of the report.

Management Comments. The Navy concurred with the audit findings and all
recommendations; therefore, no further comments are required. The Findings section of
the report contains a summary of the management comments and the Management
Comments section contains the complete text of management comments.




                                               ii
Table of Contents
Executive Summary                              i

Introduction
     Background                               1
     Objectives                               2

Findings
     A. Acquisition Category                   3
     B. Earned Value Management                6
     C. Program Documentation                 11

Appendixes
     A. Scope and Methodology
          Scope and Methodology               17
          Management Control Program Review   18
          Prior Coverage                      18
     B. Definitions of Technical Terms        19
     C. Estimate at Completion Calculations   21
     D. Report Distribution                   25

Management Comments
     Department of the Navy                   27
(1) Elements of Advanced Deployable System
(2) Description of environment

Source: Space and Naval Warfare Systems Command (U.S. Navy), Advanced Deployable System
Program Office
Advanced Deployable System
Background
    The Advanced Deployable System (ADS), a Navy Acquisition Category II
    program, is a next-generation, ship-deployable, undersea surveillance system that
    is designed to operate in littoral waters. The ADS is linked to a land facility for
    data processing, evaluation, and reporting. The system consists of three major
    segments:

       •   The underwater segment, which provides the acoustic sensing, cabling,
           and telemetry.

       •   The processing and analysis segment, which performs the signal
           processing; display functions; and command, control, communications,
           and intelligence (C4I).

       •   The mission support segment, which provides system support and
           installation functions.

    The ADS will provide the Joint Task Force Commander with the capability to
    rapidly and flexibly install, from a variety of possible platforms, an acoustic,
    littoral surveillance system that provides a complete undersea picture and target
    locations to tactical systems. The ADS will be used to conduct missions, such as
    threat port surveillance, friendly port protection, area defense, area sanitization,
    and strategic indications and warnings. The system will have the ability to be
    installed overtly or covertly, depending on the needs of the Joint Task Force
    Commander. The ADS program includes two platforms for deployment, Platform
    Alpha and Platform Bravo. Appendix B provides definitions of technical terms
    used in this report.

    At the engineering and manufacturing decision meeting held on February 10,
    2000, the Assistant Secretary of the Navy (Research, Development, and
    Acquisition), the milestone decision authority, approved the Platform Alpha
    portion of the ADS program to enter the engineering and manufacturing
    development phase of the acquisition process. The Platform Bravo portion was to
    remain in the program definition and risk reduction phase, pending
    accomplishment of an at-sea demonstration and a program review in 2001. The
    April 2001 review addressed a major program restructuring, revision of the
    acquisition decision memorandum, and a requirement for a followup review in the
    fourth quarter of FY 2002. The major program restructuring resulted in the
    program office using a four-block evolutionary acquisition strategy to develop the
    ADS. The program office’s estimate includes $793.4 million for research,
    development, test, and evaluation for all four blocks of the evolutionary
    acquisition strategy and $785 million for procurement for the first two blocks.

Major Program Revisions
    The ADS program has gone through a number of changes over its life.
    Originally, the ADS program office was to pursue Platform Alpha and Platform
    Bravo concurrently to provide the Navy with multiple deployment options. In
    February 2000, because the milestone decision authority approved only the


                                         1
    Platform Alpha for engineering and manufacturing development, the program
    structure concentrated on that platform. Subsequently, a program budget
    reduction made it apparent that engineering and manufacturing development for
    both platforms could not be pursued concurrently, regardless of the results of the
    Platform Bravo program review in 2001. In April 2001, the Office of the Chief of
    Naval Operations directed a restructure of the program to concentrate efforts on
    one version of deployment from Platform Bravo, followed by two additional
    versions of deployment from Platform Bravo and one version of deployment from
    Platform Alpha. As a result, the program office devised a four-block evolutionary
    acquisition strategy. The Assistant Secretary of the Navy (Research,
    Development, and Acquisition) approved the restructuring in May 2001, and
    required that a followup program review be held in approximately 1 year,
    allowing time for the modification and approval of the operational requirements
    document (ORD) and development of a new acquisition program baseline
    agreement. The followup program review is scheduled for the fourth quarter of
    FY 2002 because of delays in the ORD approval process.

Objectives
    The audit objective was to evaluate the overall management of ADS. Because the
    program was in the engineering and manufacturing development phase, we
    determined whether management was cost-effectively developing and readying
    the system for the full-rate production phase of the acquisition process. In
    addition, we evaluated the management control program as it related to the audit
    objectives. See Appendix A for a discussion of the audit scope, methodology, the
    review of the management control program, and prior coverage related to the
    audit objectives.




                                        2
                     A. Acquisition Category
                     The ADS program manager did not inform the Assistant Secretary of the
                     Navy (Research, Development, and Acquisition) that the oversight of the
                     program should be raised to the level of an acquisition category I program.
                     This condition occurred because the program manager believed that cost
                     information showing that the program had exceeded established thresholds
                     for research, development, test, and evaluation had been provided to the
                     Assistant Secretary of the Navy and that no further action on his part was
                     required. As a result, acquisition management oversight was not provided
                     commensurate with that required for an acquisition category I program.

Acquisition Category Guidance
            DoD defines an acquisition category as an attribute of an acquisition program that
            determines the program’s level of review, decision authority, and applicable
            procedures. Acquisition category I programs include two subcategories:
            acquisition category ID programs where the milestone decision authority is the
            Under Secretary of Defense for Acquisition, Technology, and Logistics, and
            acquisition category IC programs where the milestone decision authority is the
            Component Acquisition Executive.

            DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” April 5,
            2002,1 requires programs for which estimated expenditures for research,
            development, test, and evaluation are more than $365 million in FY 2000 constant
            dollars or for which procurement expenditures are more than $2.19 billion in
            FY 2000 constant dollars be classified as acquisition category I major programs.
            The Instruction requires the DoD Component to notify the Under Secretary of
            Defense for Acquisition, Technology, and Logistics when cost growth or a change
            in acquisition strategy results in reclassifying a formerly lower acquisition
            category program as an acquisition category I program. Changes in the
            acquisition category level should be reported as soon as the DoD Component
            suspects, within reasonable confidence, that the program is within a 10-percent
            encroachment of the next acquisition category level. The Under Secretary of
            Defense for Acquisition, Technology, and Logistics designates an acquisition
            category reclassification.

ADS Research, Development, Test, and Evaluation
            The ADS program manager did not recommend to the Assistant Secretary of the
            Navy (Research, Development, and Acquisition) that oversight of the program be
            raised to the level of an acquisition category I program. Since the Navy
            established the ADS, the estimated program costs have grown. The ADS program
            exceeded the research, development, test, and evaluation thresholds for an
            acquisition category II program, after the Assistant Secretary of the Navy

1
    Prior versions of DoD Instruction 5000.2 also contain the requirements outlined in this report.




                                                         3
     (Research, Development, and Acquisition) approved the program to enter the
     engineering and manufacturing development phase in February 2000. At the
     engineering and manufacturing development milestone decision review, the
     program office estimated that the program would require $134.6 million for
     research, development, test, and evaluation. The estimate was based on Platform
     Alpha and excluded costs for Platform Bravo. The subsequent decision to
     restructure the program and use a four-block acquisition strategy significantly
     increased the program’s estimated cost for research, development, test, and
     evaluation. The Assistant Secretary of the Navy (Research, Development, and
     Acquisition) approved the program restructure in the updated engineering and
     manufacturing development acquisition decision memorandum dated May 25,
     2001. As of June 2002, the program office estimated that research, development,
     test, and evaluation costs for the four-block acquisition strategy will total
     $793.4 million.

     The ADS program manager was aware that the ADS program met the criteria for
     an acquisition category I program, and stated that research, development, test, and
     evaluation estimates were provided to the Assistant Secretary of the Navy
     (Research, Development, and Acquisition) as part of the normal reporting
     process. The program manager felt that the cost information showing that the
     program had exceeded the acquisition category II research, development, test, and
     evaluation threshold of $365 million, as established in DoD Instruction 5000.2,
     was sufficient notification to the Assistant Secretary of the Navy and that no
     further action or recommendation on his part was required.

     Personnel in the Office of the Assistant Secretary of the Navy confirmed that the
     program manager had provided ADS research, development, test, and evaluation
     cost figures. However, because the program manager did not specifically
     reference the acquisition category II cost threshold, the personnel were not alerted
     that the cost threshold for an acquisition category II program had been exceeded.
     After being informed of the cost threshold breach, Navy personnel agreed that the
     ADS program should be reclassified as an acquisition category I program.
     Additionally, the personnel stated that they applied lessons learned from the ADS
     program to other Navy programs and took proactive measures to identify other
     programs that may have exceeded their acquisition category thresholds. As a
     result, another Navy program was identified and corrective action was initiated.

Acquisition Category I Oversight
     Acquisition management oversight of ADS was not provided commensurate with
     that required for an acquisition category I program. By not recommending that
     the ADS program be classified as an acquisition category I program, the program
     office avoided additional requirements designed to provide decision makers and
     Congress with greater visibility into program cost, schedule, and performance for
     programs of this magnitude. DoD Regulation 5000.2-R requires that program
     managers for acquisition category I programs to prepare selected acquisition
     reports, unit cost reports, contractor cost data reports, manpower estimates, and to
     obtain an independent life-cycle cost estimate. The ADS program will benefit
     from the additional oversight resulting from those reporting requirements.




                                          4
Recommendation and Management Comments
    A. We recommend that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition) request that the Under Secretary of Defense
    (Acquisition, Technology, and Logistics) designate the Advanced Deployable
    System as an acquisition category I program.

    Management Comments. The Deputy Assistant Secretary of the Navy
    (Planning, Programming and Resources) concurred, pending a program review
    requested by the Assistant Secretary of the Navy (Research, Development, and
    Acquisition). The review will be completed by October 31, 2002. By that point,
    the Assistant Secretary will determine the appropriate acquisition category for the
    Advanced Deployable System and, if appropriate, request that the Under
    Secretary of Defense (Acquisition, Technology, and Logistics) designate the
    system as an acquisition category I program.




                                         5
           B. Earned Value Management
           The program office did not apply standard estimate-at-completion
           formulas in calculating earned value management computations because it
           did not believe that the standard formulas accurately reflected the unique
           aspects of the ADS program. Also, the program office did not request the
           Defense Contract Management Agency to review earned value
           management calculations because it believed its personnel were better
           equipped to provide oversight of the research and development. As a
           result, the program office’s EAC was significantly lower than the EAC
           calculated using standard formulas and did not provide decision makers
           with accurate data on estimated contract cost overruns.

Earned Value Management Guidance
    The “Earned Value Management Implementation Guide,” Revision 1, October 3,
    1997, provides guidance to be used during the implementation and surveillance of
    contractor earned value management systems (EVMS). The Guide states that
    earned value management is a tool that allows program managers to manage
    technical, cost, and schedule progress on their contracts. Implementation of an
    EVMS integrates the cost, schedule, and technical aspects of the contract and
    provides the program manager with contractor cost and schedule performance
    data that:

               •   relate time-phased budgets to specific contract tasks or statements
                   of work, or both;
               •   indicate work progress;
               •   properly relate cost, schedule, and technical accomplishments;
               •   are valid, timely, and auditable;
               •   provide managers with summarized information at a practical
                   level; and
               •   are derived from the same internal EVMS that the contractor uses
                   to manage the contract.
    The DoD adopted industry-standard criteria that define acceptable requirements to
    implement EVMS on Defense contracts.

Estimate-at-Completion Calculations
    Calculations for an EVMS are based on three key data points in the contractor’s
    cost accounting system; specifically, the budgeted cost of work scheduled, the
    budgeted cost of work performed, and the actual cost of work performed. By
    comparing those three data points, managers can determine current schedule and
    cost variances and can use that data to predict possible schedule delays or cost
    overruns. Estimate-at-completion (EAC) calculations are used to predict how
    much a contract will cost if current schedule and cost variances continue. The




                                        6
Defense Systems Management College defines EAC as the actual cost of work
performed plus an estimate for remaining work, and identifies the following
standard formulas for calculating the estimate at completion.

       1. EACCPI = BAC
                   CPI

       2. EACComposite = ACWPCUM + (BAC – BCWPCUM)

                                          (CPICUM * SPICUM )

               ACWP    Actual Cost of Work Performed
               BAC     Budget at Completion
               BCWP    Budgeted Cost of Work Performed
               CPI     Cost Performance Index
               CUM     Cumulative
               SPI     Schedule Performance Index

EAC Using Formulas. Because the program office completed an EVMS
rephasing effort in December 2001, we limited our review of contract EVMS
calculations to the months after the program restructure. Using the EVMS figures
provided by the program office, we calculated the EAC for the current ADS
engineering and manufacturing development contract using each of the formulas
listed above, and calculated the resulting variance or estimated cost overruns. The
EAC for Formula 1 includes cost variables and the EAC for Formula 2 includes
both cost and schedule variables. The following table shows the results of the
EAC calculations and total estimated cost overruns for the contract at the end of
each month. Appendix C provides a breakout of the calculations for each
authorized work element within the contract work breakdown structure.

                      Month-End Estimated Cost Overruns
                                 (in millions)

                              Formula One                   Formula Two

                                    Estimated                     Estimated
      Month           EAC          Cost Overruns         EAC     Cost Overruns
    January           $68.8            $6.2              $70.8       $8.2

    February          68.8                6.2            69.6         7.1

    March             69.2                6.7            72.1         9.5

    April             69.5                7.0            72.5         9.9


EAC Using the Program Office Method. The program office used standard
formulas to calculate cost and schedule variances and cost and schedule
performance indices based on EVMS data. However, the program office did not
use standard formulas to calculate the EAC, which is an indication of whether a


                                      7
program will be completed on time and within budget. The program office did
not use the standard formulas because it believed that the standard formulas did
not accurately reflect the unique aspects of the ADS program. Instead, the
program office stated that it calculated the EAC by adding the actual cost of work
performed to an engineering estimate of work remaining. However, the program
office was unable to provide documentation on the process used to develop the
engineering estimate. It appears that the program office calculated the EAC by
adding the actual cost of work performed to the budgeted cost of work remaining.
A comparison of EAC using this method and the engineering estimate that the
program office provided for April 2002 shows only a .2 percent difference in the
EAC amounts -- $66.2 million as calculated and $66.3 million as provided by the
program office. This method assumes that the remainder of the contract will be
completed on time and within budget, an invalid assumption when based on
contractor performance through April 2002. The program office calculated the
January, February, March, and April EAC as $64.8, $65, $65.6, and $66.3
million, respectively, resulting in estimated cost overruns of $0.1, $0.3, $0.9 and
$1.6 million, respectively. In making its EAC calculations, it appears that the
program office did not consider the contractor’s past performance on this contract
in predicting future contract performance. The ADS program manager
recognized that the EAC was unfavorable but assumed that savings in test article
production costs would offset cost overruns experienced during development;
however, future savings cannot be predicted and relied upon.

The following figure shows a comparison of the estimated cost overruns
calculated by the program office and those calculated by using the standard
formulas for January through April 2002.


                           10
                            9
                            8
   Dollars (in millions)




                            7
                            6
                                                                         Program Office
                            5
                                                                         Formula One
                            4
                                                                         Formula Two
                            3
                            2
                            1
                            0
                                January   February       March   April

Estimated Cost Overruns in Millions




                                                     8
Defense Contract Management Agency Oversight
    Usually, the Defense Contract Management Agency (DCMA) reviews
    contractors’ cost and schedule control systems for acquisition program offices
    using earned value management techniques. After contract award, DCMA
    monitors contractors’ performance and management systems to ensure that cost,
    product performance, and delivery schedules comply with the terms and
    conditions of the contracts. DCMA also provides EVMS tracking services to
    program offices. EVMS tracking services include validating contractors’ EVMS,
    calculating schedule and cost variances, notifying program management of areas
    of concern, and tracking those areas from month to month.

    As of June 2002, the DCMA and the ADS program office had not approved a
    memorandum of agreement to document a planned certification, review, and
    reporting process for the ADS engineering and manufacturing development
    contract. A draft memorandum of agreement was being circulated within the
    program office and DCMA for review and comment. However, the program
    office, in the draft memorandum of agreement, did not plan to request DCMA
    support to perform earned value management calculations and limited the DCMA
    oversight to validating the contractor’s EVMS. The program manager believed
    that his personnel were better equipped to provide oversight of the contractor’s
    research and development efforts. In the draft memorandum of agreement, the
    program office retained the responsibility for calculating schedule and cost
    variances and EAC.

    When asked, the DCMA program integrator for ADS did not agree with the
    program office’s assumptions or methodology for calculating the contract EAC.
    He stated that he preferred to use standard Formula 2 to calculate EAC because it
    considered both cost and schedule variables. However, he cautioned that while
    there is no one formula that considers all variables, the formula used should be
    considered a “tool” to flag areas of concern needing further explanation or
    mitigation. Based on the April 2002 EVMS data, calculations using Formula 2
    resulted in an estimated cost overrun of $9.9 million, but the program office
    estimated a cost overrun of $1.6 million. The $8.3 million difference is more than
    10 percent of the total contract value.

Conclusion
    The ADS Program Office’s calculation of EAC did not provide accurate EVMS
    data to effectively manage program cost and performance, and did not provide
    acquisition decision makers with the information needed to make fully informed
    investment decisions. EVMS calculations are the primary means of providing the
    program manager and decision makers with contractor performance information.
    Without accurate EVMS data, the program office cannot monitor contract
    progress and manage the program effectively. Although several formulas may be
    used to calculate EAC and many factors should be considered, the lack of
    documentation supporting the program office methodology and the results
    obtained from using either of the standard formulas call that methodology into
    question.



                                        9
Recommendation and Management Comments
    B. We recommend that the Program Manager, Advanced Deployable
    System revise the current draft memorandum of agreement between the
    program office and the Defense Contract Management Agency to include
    Defense Contract Management Agency oversight of contractor earned value
    management calculations, including standard estimate-at-completion
    formulas.

    Management Comments. The Deputy Assistant Secretary of the Navy
    (Planning, Programming and Resources) concurred, stating that the program
    office and the Space and Naval Warfare Command will develop a memorandum
    of agreement with the Defense Contract Management Agency no later than
    November 1, 2002. He stated that all future earned value reports will include
    estimate-at-completion values calculated using standard formulas along with the
    program manager’s estimate-at-completion.




                                       10
                     C. Program Documentation
                     The ADS Program Office had not completed actions to update the
                     acquisition strategy; cost analysis requirements description; life-cycle cost
                     estimate; C4I support plan; and programmatic environmental, safety, and
                     health evaluation plan as required to show the current status of the
                     program. This condition occurred because the program office could not
                     update program documentation because an updated ORD and test and
                     evaluation master plan were not yet approved. As a result, the program
                     manager did not have up-to-date acquisition documentation needed to
                     effectively manage program cost and performance and acquisition
                     decision makers could not make fully informed investment decisions.

Program Documentation Requirements
            DoD Policy. DoD Instruction 5000.2 and DoD Regulation 5000.2-R, “Mandatory
            Procedures for Major Defense Acquisition Programs (MDAPs) and Major
            Automated Information System (MAIS) Acquisition Programs,” April 2002,2
            establish policies and procedures for managing acquisition programs. The
            DoD 5000 documents state that program managers for defense acquisitions are to
            rely on and generate program documents needed for program execution and
            decision making. Program documents include the acquisition strategy; cost
            analysis requirements description (CARD); life-cycle cost estimate; C4I support
            plan; programmatic environmental, safety, and health evaluation plan; and
            acquisition decision memorandum. Those interrelated documents help the
            program manager to provide decision makers with the information needed to
            oversee and make important program decisions.

            Navy Policy. Secretary of the Navy Instruction 5000.2B, “Implementation of
            Mandatory Procedures for Major and Non-Major Defense Acquisition Programs
            and Major and Non-Major Information Technology Acquisition Programs,”
            December 6, 1996, provides mandatory procedures for Department of the Navy
            implementation of DoD Regulation 5000.2-R.

Status of Program Documents
            The program office had not completed actions to update the acquisition strategy;
            CARD; life-cycle cost estimate; C4I support plan; and programmatic
            environmental, safety, and health evaluation plan as required to show the current
            status of the program.

            Acquisition Strategy. DoD Regulation 5000.2-R requires the program manager
            to develop the acquisition strategy at program initiation and update it whenever
            there is a change or as the system approach and program elements are better
            defined. The program manager develops and documents an acquisition strategy to
            serve as a road map from program initiation through post-production support.

2
    Prior versions of DoD Regulation 5000.2-R also contain the requirements outlined in this report.



                                                       11
The program office prepared the initial acquisition strategy in April 1994 in
preparation for program initiation. It was revised in January 2000 for the
engineering and manufacturing review. The program manager stated that the
acquisition strategy was being updated again because of a decision to purchase
specific equipment using a sole-source contract, rather than using a competitive
contracting process identified in the original acquisition strategy. In addition to
the change in contracting procedures, the acquisition strategy needed to be
updated to show the four-block evolutionary acquisition strategy adopted by the
program office. The program office developed an acquisition strategy outline in
May 2002, and planned to revise it by August 2002. The revised acquisition
strategy will be completed in time to support the program review that the
Assistant Secretary of the Navy (Research, Development, and Acquisition)
requested in the May 25, 2001, update to the acquisition decision memorandum
that approved the program restructure. The review was to take place 1 year after
the program restructure was approved and is currently scheduled for the fourth
quarter of FY 2002.

Cost Analysis Requirements Description. DoD Regulation 5000.2-R requires
DoD Components for acquisition category I programs to establish, as a basis for
the life-cycle cost estimate, a description of the salient features of the acquisition
program and of the system itself. The description, referred to as the CARD, is to
be flexible, tailored, and refer to information available in other documents.
Secretary of the Navy Instruction 5000.2B extends the CARD requirement to all
acquisition programs. DoD Manual 5000.4-M, “Department of Defense Cost
Analysis Guidance and Procedures,” December 11, 1992, provides guidance on
preparing the CARD. The Manual requires that the CARD be prepared by the
program office and approved by the DoD Component's Program Executive
Officer. The CARD is to contain the following elements: a system overview,
system risk assessment, system operational concept, quantity requirements,
system manpower requirements, system activity rates, a milestone schedule, an
acquisition strategy, a development plan, facility requirements, and the
contractor’s cost data reporting plan. Additionally, the Manual requires that the
CARD be regarded as a “living” document that is updated to show any changes
that have occurred or the availability of new data.

The program office prepared the CARD for the ADS program in October 1999.
The CARD was divided into sections, each section corresponding to the required
elements as stated above. The system overview provided a description of the
ADS and mentioned the two deployment options, Platform Alpha and Platform
Bravo. However, because the original plan was to produce Platform Alpha before
Platform Bravo, the CARD discussed only Platform Alpha in the remaining
sections and stated that a new CARD would be produced for Platform Bravo. As
of June 2002, the Program Office had not updated the CARD to discuss the
unique aspects of Platform Bravo even though the acquisition plan for the ADS
involves producing and deploying Platform Bravo before Platform Alpha.
Additionally, the sections on system risk and system operational concepts were
incomplete and referred the reader to undefined documents for information.
Accordingly, the program office needs to update and complete the CARD so that
cost estimators can use it to develop a reliable life-cycle cost estimate for the
program.




                                      12
The program office stated that it was preparing updates to the CARD and that
each block would have an appendix within the CARD that described the unique
aspects of that block. However, the program office did not plan to prepare the
appendix for each block until the program office completes a detailed design
review for each block. As a consequence, cost estimators will not be able to
provide the program office with reliable total cost estimates until late in the life
cycle of the program, which, in turn, will prevent decision makers from making
early investment decisions that are based on total program costs.

Life-Cycle Cost Estimate. The life-cycle cost estimate represents the total cost
to the Government for the acquisition and ownership of a system over its useful
life. It includes the cost of development, acquisition, operations and support and,
where applicable, disposal. DoD Regulation 5000.2-R requires that program
managers for all major defense acquisition programs prepare a life-cycle cost
estimate in support of program initiation and at all subsequent milestone reviews.
Secretary of the Navy Instruction 5000.2B extends the life-cycle cost estimate
requirement to all acquisition programs.

The program office prepared a life-cycle cost estimate for the engineering and
manufacturing program review in November 1999. The program office based the
life-cycle cost estimate on the assumption that Platform Alpha would be
developed and procured before Platform Bravo. However, in April 2001, the
Office of the Chief of Naval Operations directed the program office to develop
and procure Platform Bravo first and identified deployment options for each
platform. In response, the program office initiated a four-block acquisition
strategy. As of June 2002, the program office had not determined the additional
time and cost associated with the new acquisition strategy and had not calculated
disposal costs. Many of the decisions throughout the life of the program are
based on the life-cycle costs, not the least of which is to determine the appropriate
level of program oversight. Program oversight is dependent on estimated
program costs for research, development, test, and evaluation and procurement.
Further, without a realistic life-cycle cost estimate, program decision makers will
not be able to oversee and evaluate program management and affordability.

The program office stated that separate life-cycle cost estimates, to include
disposal costs, will be prepared for each ADS block as it becomes defined in
sufficient detail. The Block I life-cycle cost estimate and the preliminary life-
cycle cost estimate for Block II will be available for the fourth quarter FY 2002,
Assistant Secretary of the Navy (Research, Development, and Acquisition)
program review. The life-cycle cost estimate for Block II will include
development and production costs, but not operation and support costs because
those costs will not be sufficiently defined. The program office plans to have
preliminary life-cycle cost estimates for Blocks III and IV in FY 2003. The
program office stated that complete life-cycle cost estimates for Blocks II through
IV, including operation and support costs and disposal costs, will not be available
until after the system design review for each block and will be updated after the
detailed design review for each block. While this schedule shows a plan for
updating the life-cycle cost estimate, the program office will not have a
reasonable estimate of total program cost until late in the engineering and
manufacturing development phase of the acquisition process. To make
affordability decisions for the ADS program, the program office needs to
complete a comprehensive life-cycle cost estimate to include all costs of the


                                      13
four-block program, even if costs for Blocks II through IV cannot be completed in
detail. The program office can update the life-cycle cost estimate as necessary,
but the program office needs to have an estimate of total life-cycle costs now to
make management and affordability decisions for the program. Additionally, an
independent life-cycle cost estimate was not performed earlier because an
independent estimate is not required for acquisition category II programs. When
the program is redesignated as an acquisition category I program as required, an
independent life-cycle cost estimate must be prepared.

C4I Support Plan. DoD Regulation 5000.2-R requires that DoD Components
develop C4I support plans for all programs early in the acquisition process when
the Components connect in any way to the communication and information
infrastructure. Additionally, DoD Instruction 5000.2 requires each program
manager to address system interoperability in the C4I support plan. The
Instruction defines interoperability as the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to
use the services so exchanged to operate effectively together. The Instruction also
states that the outcome of systems acquisition is a system that is interoperable
with other systems (U.S., Coalition, and allied systems, as specified in the ORD).
Further, acquisition decision makers are required to review the C4I support plan at
each milestone; at decision reviews, as appropriate; and whenever support
requirements change.

The program office recognized the need for a C4I support plan based on ADS
interfaces with other C4I systems, and prepared the initial C4I support plan during
the program definition and risk reduction phase of the acquisition process. The
program office plans to update its C4I support plan in FY 2004 because the Space
and Naval Warfare Systems Command issued guidance requiring that all
Command programs set aside FY 2004 funds to update C4I support plans. In
addition to the availability of funding, program office personnel believed that
collaborating with other program offices that were updating their C4I support
plans in FY 2004 would result in a better C4I support plan.

However, an important function of a C4I support plan is to identify interfaces that
need to be tested. The first land integration test where ADS interfaces will be
tested is scheduled for the first quarter FY 2004. Accordingly, it is too late in the
process for the program office to wait until FY 2004 to begin updating the C4I
support plan to incorporate the updated operational requirements and system
configuration changes. Personnel from the Office of the Commander, Operational
Test and Evaluation Force stated that the C4I support plan should be completed
before the land integration test.

Programmatic Environmental, Safety, and Health Evaluation Plan. DoD
Regulation 5000.2-R requires that the program manager include a programmatic
environmental, safety, and health evaluation plan in the acquisition strategy. The
program manager is to initiate the evaluation at the earliest possible time in
support of a program initiation decision and maintain an updated evaluation
throughout the life cycle of the program. The program manager is to ensure that
the system can be tested, operated, maintained, repaired, and disposed of in
compliance with environmental regulations and DoD Regulation 5000.2-R
requirements.



                                     14
    The Naval Facilities Engineering Service Center prepared a programmatic
    environmental, safety, and health evaluation plan for ADS in May 1997, and
    updated it in July 1999. The Center identified potential risks that could occur
    despite program office compliance and mitigation activities. Moderate risks
    identified included concerns involving marine mammals and endangered species,
    personnel safety hazards because of the lithium battery storage and use, and air
    emissions that may become an issue as production rates increase.

    One mitigation method that the program office used during the tests was marine
    mammal watching as they gradually increased acoustic sound to the desired
    testing level. Also, the primary hardware manufacturer prepared a preliminary
    point paper primarily addressing disposal of batteries and cables. When the
    programmatic environmental, safety, and health evaluation plan was completed,
    the program office identified no safety hazards. In addition, two environmental
    assessments were conducted; both resulted in findings of no significant impact.
    However, the change in the deployment method of ADS may affect the
    environment and the safety and health of the crew. As a result, the program office
    stated that the Naval Facilities Engineering Service Center was updating the
    programmatic environmental, safety, and health evaluation plan concurrently with
    the ORD approval process.

Conclusion
    Documentation is the primary means of providing the milestone decision
    authority, as well as other key managers, with information needed for decision
    making. Without accurate and up-to-date program documents, such as the
    acquisition strategy, CARD, life-cycle cost estimate, C4I support plan, and
    programmatic environmental, safety, and health plan, the program office cannot
    provide assurance to acquisition decision makers that performance and cost
    thresholds are being achieved and that the program is affordable. Although the
    program office believed that the ORD would be approved in August 2002, with
    the test and evaluation master plan being approved shortly thereafter, the ADS
    program office did not have the up-to-date acquisition documentation needed to
    effectively manage program cost and performance, and acquisition decision
    makers could not make fully informed investment decisions.

Recommendations and Management Comments
    C. We recommend that the program manager for the Advanced Deployable
    System, concurrent with the approval of the operational requirements
    document and the test and evaluation master plan:

         1. Update the acquisition strategy to incorporate the restructured four-
    block evolutionary acquisition strategy.
         2. Update the cost analysis requirements description to be used as a
    basis for the life-cycle cost estimate.




                                        15
     3. Update the life-cycle cost estimate, including disposal costs, for all
four blocks of the evolutionary acquisition strategy and direct the
independent review of the life-cycle cost estimate.

      4. Update the command, control, communications, computers, and
intelligence support plan to document required interfaces with other systems.

     5. Update the programmatic environmental, safety, and health
evaluation plan to show that the system can be tested, operated, maintained,
repaired, and disposed of in compliance with environmental regulations.

Management Comments. The Deputy Assistant Secretary of the Navy
(Planning, Programming and Resources) concurred and provided the following
dates for completing the document revisions:

   •   Updates to the acquisition strategy and life-cycle cost estimate, inclusive
       of all four blocks of the Advanced Deployable System program, will be
       completed no later than February 28, 2003.

   •   Updates to the command, control, communications, computers, and
       intelligence support plan and programmatic environmental, safety, and
       health evaluation plan will be completed no later than October 30, 2002.

Additionally, the program office is developing a plan of action and milestones to
drive and track the process for updating all needed documentation in a timely
manner. This action plan will be completed before the program review planned
for October 2002.




                                    16
Appendix A. Scope and Methodology
   In conducting this program audit, we reviewed documentation dated from March
   1993 through May 2002. We interviewed and obtained documentation from the
   staffs of the Director, Operational Test and Evaluation; Director, Defense
   Contract Management Agency; Assistant Secretary of the Navy (Research,
   Development, and Acquisition); Deputy Chief of Naval Operations (Warfare
   Requirements and Programs); Commander, Operational Test and Evaluation
   Force; Commander, Space and Naval Warfare Command; and Program Manager,
   Advanced Deployable System. We used criteria in DoD Regulation 5000.2-R to
   perform the audit. To accomplish the audit objectives, we took the following
   steps:

      •   determined whether the users had adequately defined the system
          requirements;

      •   determined whether the program office had developed and implemented
          an acquisition plan, a risk management plan, and a test and evaluation
          plan;

      •   evaluated the Defense Contract Management Agency’s involvement in
          monitoring the contractor’s earned value management process;

      •   evaluated the program office’s management of contracts for the program;

      •   determined whether the program office had a fully developed,
          programmatic, environmental, safety, and health evaluation plan;

      •   assessed the program office’s implementation of the DoD environmental
          management process;

      •   determined whether the program office had prepared a life-cycle cost
          estimate for the program;

      •   evaluated program office use of integrated product teams; and

      •   reviewed management controls related to the audit objective.

   Audit Dates and Standards. We performed this audit from October 2001
   through June 2002 in accordance with generally accepted government auditing
   standards.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Contacts During the Audit. We visited or contacted individuals and
   organizations within the DoD and contractor locations.




                                      17
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapons System Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to program definition, structure, design
    assessments and decision reviews, and periodic reporting.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the acquisition of the ADS as defined by DoD
    Instruction 5010.40. Controls over program documentation were insufficient to
    ensure that acquisition decision makers were provided updated acquisition
    documentation in time to effectively manage program cost and performance.
    Recommendations C.1., C.2., C.3., C.4., and C.5., if implemented, will improve
    the quality and timeliness of program information provided to acquisition decision
    makers so they can make fully informed investment decisions. A copy of the
    report will be provided to the senior official responsible for management controls
    in the Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and the Department of the Navy.

    Adequacy of Management’s Self Evaluation. In June 1998, the Space and
    Naval Warfare Command identified the ADS program office as an assessable
    unit. However, in that evaluation, the Space and Naval Warfare Command did
    not identify the specific material management control identified by the audit
    because the weakness occurred after the June 1998 evaluation.

Prior Coverage
    During the last 5 years, the General Accounting Office, the Inspector General of
    the Department of Defense, and the Naval Audit Service have not issued reports
    specifically addressing the ADS.




                                        18
Appendix B. Definitions of Technical Terms
   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-defined,
   system-specific requirements and, ultimately, into operationally effective,
   suitable, and survivable systems.

   Evolutionary Acquisition. An evolutionary acquisition is an acquisition strategy
   that defines, develops, produces or acquires, and fields an initial hardware or
   software increment of operational capability. There are two basic approaches to
   evolutionary acquisition. In one approach, the ultimate purpose can be defined at
   the beginning of the program, with the content of each deployable increment
   determined by the maturation of key technologies. In the second approach, the
   ultimate purpose cannot be defined at the beginning of the program, and each
   increment of the capability is defined by the maturation of the technologies
   matched with the evolving needs of the user.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where the
   program office and its contractors fully develop, engineer, design, fabricate, test,
   and evaluate the systems and the principal items necessary for its support.

   Full-Rate Production. Full-rate production is contracting for economic
   production quantities following stabilization of the system design and validation
   of the production process.

   Milestone. A milestone is the point where the milestone decision authority
   decides whether to start or continue an acquisition program in the acquisition
   process.

   Milestone Decision Authority. A milestone decision authority is the individual
   designated in accordance with criteria established by the Under Secretary of
   Defense for Acquisition, Technology, and Logistics to approve entry of an
   acquisition program in to the next phase of the acquisition process.

   Operational Requirements Document. The ORD is a formatted statement
   containing performance and related operational performance parameters for the
   proposed concept or system. The ORD is prepared by the user or user’s
   representative.

   Programmatic Environmental, Safety, and Health Evaluation Plan. A
   programmatic environmental, safety, and health evaluation plan is written to
   document the program manager’s strategy for meeting environmental, safety, and
   health requirements; establish responsibilities; and identify how progress will be
   tracked.




                                       19
Test and Evaluation Master Plan. The test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program.
It provides a framework within which to generate detailed test and evaluation
plans and documents schedule and resource implications associated with the test
and evaluation program. The test and evaluation master plan identifies the
necessary developmental test and evaluation, operational test and evaluation, and
live-fire test and evaluation activities.




                                    20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology and Logistics)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Deputy Chief of Naval Operations (Warfare Requirements and Programs)
Commander, Space and Naval Warfare Systems Command
  Program Director, Intelligence, Surveillance, and Reconnaissance Systems
     Program Manager, Advanced Deployable System

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          26
Department of the Navy Comments




                    27
28
29
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
John E. Meling
Susan J. Lippolis
Amy L. Mathews
Michael T. Burger
Lidet K. Negash
Jacqueline N. Pugh
